e<

_^L£^lJ

r. ±L
£> wr

< flS- tA «

^MLa

FILED: April 6, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7531
(7:18-cv-00595-EKD-JCH)

WESLEY BRIAN EARNEST
Petitioner - Appellant
v.
KEITH W. DAVIS, Warden; HAROLD W. CLARKE, Director Virginia
Department of Corrections
Respondents - Appellees

MANDATE
The judgment of this court, entered February 23, 2021, takes effect today.
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of the Federal Rules of Appellate Procedure.

/s/Patricia S. Connor, Clerk

FILED: February 23, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7531
(7:18-cv-00595-EKD-JCH)

WESLEY BRIAN EARNEST
Petitioner - Appellant
v.
KEITH W. DAVIS, Warden; HAROLD W. CLARKE, Director Virginia
Department of Corrections
Respondents - Appellees

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7531

WESLEY BRIAN EARNEST,
Petitioner - Appellant,
v.
KEITH W. DAVIS, Warden; HAROLD W. CLARKE, Director Virginia
Department of Corrections,
Respondents - Appellees.

Appeal from the United States District Court for the Western District of Virginia, at
Roanoke. Elizabeth Kay Dillon, District Judge. (7:18-cv-00595-EKD-JCH)

Submitted: February 18, 2021

Decided: February 23, 2021

Before NIEMEYER, KING, and FLOYD, Circuit Judges.

Dismissed by unpublished per curiam opinion.

Wesley Brian Earnest, Appellant Pro Se.

Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Wesley Brian Earnest seeks to appeal the district court’s order dismissing as
untimely his 28 U.S.C. § 2254 petition. See Gonzalez v. Thaler, 565 U.S. 134, 148 & n.9
(2012) (explaining that § 2254 petitions are subject to one-year statute of limitations,
running from latest of four commencement dates enumerated in 28 U.S.C. § 2244(d)(1)).
The order is not appealable unless a circuit justice or judge issues a certificate of
appealability. 28 U.S.C. § 2253(c)(1)(A). A certificate of appealability will not issue
absent “a substantial showing of the denial of a constitutional right.”

28 U.S.C.

§ 2253(c)(2). When, as here, the district court denies relief on procedural grnnnds^the
prisoner must demonstrate both that the dispositive procedural ruling is debatable and that
the petition states a debatable claim of the denial of a constitutional right. Gonzalez, 565
U.S. at 140-41 (citing Slack v. McDaniel, 529 U.S. 473,484 (2000)).
We have independently reviewed the record and conclude that Earnest has not made
the requisite showing. Accordingly, although we grant Earnest’s motion to exceed length
limitations for the informal brief, we deny his motions for an evidentiary hearing and a
certificate of appealability, and dismiss the appeal. We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
DISMISSED

2

FILED: February 23, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-7531,

Wesley Earnest v. Keith Davis
7:18-cv-00595-EKD-JCH

NOTICE OF JUDGMENT
Judgment was entered on this date in accordance with Fed. R. App. P. 36. Please
be advised of the following time periods:
PETITION FOR WRIT OF CERTIORARI: The time to file a petition for writ
of certiorari runs from the date of entry of the judgment sought to be reviewed, and
not from the date of issuance of the mandate. If a petition for rehearing is timely
filed in the court of appeals, the time to file the petition for writ of certiorari for all
parties runs from the date of the denial of the petition for rehearing or, if the
petition for rehearing is granted, the subsequent entry of judgment. See Rule 13 of
the Rules of the Supreme Court of the United States; www.supremecourt.gov.
VOUCHERS FOR PAYMENT OF APPOINTED OR ASSIGNED
COUNSEL: Vouchers must be submitted within 60 days of entry of judgment or
denial of rehearing, whichever is later. If counsel files a petition for certiorari, the
60-day period runs from filing the certiorari petition. (Loc. R. 46(d)). If payment is
being made from CJA funds, counsel should submit the CJA 20 or CJA 30
Voucher through the CJA eVoucher system. In cases not covered by the Criminal
Justice Act, counsel should submit the Assigned Counsel Voucher to the clerk's
office for payment from the Attorney Admission Fund. An Assigned Counsel
Voucher will be sent to counsel shortly after entry of judgment. Forms and
instructions are also available on the court's web site, www.ca4.uscourts.gov, or
from the clerk's office.
BILL OF COSTS: A party to whom costs are allowable, who desires taxation of
costs, shall file a Bill of Costs within 14 calendar days of entry of judgment.
(FRAP 39, Loc. R. 39(b)).

PETITION FOR REHEARING AND PETITION FOR REHEARING EN
BANC: A petition for rehearing must be filed within 14 calendar days after entry
of judgment, except that in civil cases in which the United States or its officer or
agency is a party, the petition must be filed within 45 days after entry of judgment.
A petition for rehearing en banc must be filed within the same time limits and in
the same document as the petition for rehearing and must be clearly identified in
the title. The only grounds for an extension of time to file a petition for rehearing
are the death or geripus illness of counsel or a family-member (or of a party or
family member in pro se cases) or an extraordinary circumstance wholly beyond
the control of counsel or a party proceeding without counsel.
Each case number to which the petition applies must be listed on the petition and
included in the docket entry to identify the cases to which the petition applies. A
timely filed petition for rehearing or petition for rehearing en banc stays the
mandate and tolls the running of time for filing a petition for writ of certiorari. In
consolidated criminal appeals, the filing of a petition for rehearing does not stay
the mandate as to co-defendants not joining in the petition for rehearing. In
consolidated civil appeals arising from the same civil action, the court's mandate
will issue at the same time in all appeals.
A petition for rehearing must contain an introduction stating that, in counsel's
judgment, one or more of the following situations exist: (1) a material factual or
legal matter was overlooked; (2) a change in the law occurred after submission of
the case and was overlooked; (3) the opinion conflicts with a decision of the U.S.
Supreme Court, this court, or another court of appeals, and the conflict was not
addressed; or (4) the case involves one or more questions of exceptional
importance. A petition for rehearing, with or without a petition for rehearing en
banc, may not exceed 3900 words if prepared by computer and may not exceed 15
pages if handwritten or prepared on a typewriter. Copies are not required unless
requested by the court. (FRAP 35 & 40, Loc. R. 40(c)).
MANDATE: In original proceedings before this court, there is no mandate. Unless
the court shortens or extends the time, in all other cases, the mandate issues 7 days
after the expiration of the time for filing a petition for rehearing. A timely petition
for rehearing, petition for rehearing en banc, or motion to stay the mandate will
stay issuance of the mandate. If the petition or motion is denied, the mandate will
issue 7 days later. A motion to stay the mandate will ordinarily be denied, unless
the motion presents a substantial question or otherwise sets forth good or probable
cause for a stay. (FRAP 41, Loc. R. 41).

FILED: March 9, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7531
(7:18-cv-00595-EKD-JCH)

WESLEY BRIAN EARNEST
Petitioner - Appellant
v.
KEITH W. DAVIS, Warden; HAROLD W. CLARKE, Director Virginia
Department of Corrections
Respondents - Appellees

TEMPORARY STAY OF MANDATE
Under Fed. R. App. P. 41(b), the filing of a timely petition for rehearing or
rehearing en banc stays the mandate until the court has ruled on the petition. In
accordance with Rule 41(b), the mandate is stayed pending further order of this
court.
/s/Patricia S. Connor, Clerk

Zapped** A

uoom^

Mppeai; zu-/oo i

meu: uo/z»/zu^ i

uuu: t\j

rg: i ui i

FILED: March 29, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-7531
(7:18-cv-00595-EKD-JCH)

WESLEY BRIAN EARNEST
Petitioner - Appellant
v.

KEITH W. DAVIS, Warden; HAROLD W. CLARKE, Director Virginia
Department of Corrections
Respondents - Appellees

ORDER
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

S ~f~

b> Ij 4-y-', £ -f-

£>tS'-br'ioir

*>£

(Sooi-^h
\f i

L3

~P* r

re

C«U e.

k*.

1
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
WESLEY BRIAN EARNEST,
Petitioner,
v.
KEITH W. DAVIS, Warden,
and
HAROLD W. CLARKE, Director,
Respondents.

•

)
)
)
)
)
)
)
)
)

Civil Action No. 7:18-cv-00595

By: Elizabeth K. Dillon
United States District Judge

FINAL ORDER
In accordance with the Memorandum Opinion entered this day, it is hereby ORDERED:
(1) The respondent’s second motion to dismiss (Dkt. No. 19) is GRANTED, and
Earnest’s amended petition pursuant to 28 U.S.C. § 2254 is DISMISSED.
(2) This action is STRICKEN from the active docket of this court; and
(3) Concluding that Earnest has failed to make a substantial showing of the denial of a
constitutional right as required by 28 U.S.C. § 2253(c), a certificate of appealability is
DENIED.
The Clerk is directed to send copies of this Order and the accompanying Memorandum
Opinion to counsel for the respondent and to Mr. Earnest.
Entered: September 30, 2020.

yAy^AA
Elizabeth K. Dillon
United States District Judge

f\

X

B

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
WESLEY BRIAN EARNEST,
Petitioner,
v.

KEITH W. DAVIS, Warden,
and
HAROLD W. CLARKE, Director,
Respondents.

)
)
)
)
)
)
)
)

Civil Action No. 7:18-cv-00595

By: Elizabeth K. Dillon
United States District Judge

s

MEMORANDUM OPINION
Petitioner Wesley Brian Earnest, a Virginia inmate proceeding pro se, filed an original
petition for writ of habeas corpus, pursuant to 28 U.S.C. § 2254, and an amended petition,
challenging his incarceration under an Amherst County Circuit Court criminal judgment entered
February 10, 2011, for first-degree murder in violation of Virginia Code § 18.2-32 and use of a
firearm in the commission of first-degree murder in violation of Virginia Code § 18.2-53.1 (Case
Nos. CR 10013891-01 andCR 100.13891-02). The court sentenced Earnest to life in prison plus
three years. (Trial R. at 178-80.) i
Respondents filed a motion to dismiss the petition and amended petition as untimely,
partially procedurally defaulted, and alternatively, without merit. Earnest has responded, making
the matter ripe for disposition. After careful review of Earnest’s claims and the entire record of
all proceedings in the state court, the court concludes that Earnest’s petition was filed past the
statute of limitations. Further, Earnest has failed to demonstrate that he is entitled to equitable

’ Citations herein fo “Trial R.” refer to ihe records of the Amherst County Circuit Court in Earnest’s
criminal trial, using the page numbers in the lower right comer of each page. Citations to “Habeas R.” refer to the
Amherst County Circuit Court habeas record, using the page numbers in the lower right corner of each page.

tolling or that he is “actually innocent.” For these reasons, the court will grant the motion to
dismiss and will deny Earnest a certificate of appealability.
I. BACKGROUND
On May 6, 2008, a Bedford County Circuit Court grand jury indicted Earnest for firstdegree murder of his estranged wife, Jocelyn Earnest, on December 19, 2007, and for use of a
firearm in the commission of that murder. Following a jury trial held March 24, 2010, through
April 5, 2010, Earnest was convicted on both counts. Prior to the scheduled sentencing hearing,
the court learned that several journals written by the victim and excluded from evidence had
been inadvertently sent to the jury room with the trial exhibits. On July 26, 2010, the court
entered a mistrial order, and the case was reset for November 8, 2010. On Earnest’s motion for a
transfer of venue due to heavy media coverage of the first trial, the court transferred venue to
Amherst County Circuit Court for trial, with a venire panel to be selected from Nelson County.
(Trial R. at 1-6.)
The trial took place from November 8, 2010, through November 19, 2010, during which
the evidence, in the light most favorable to the government as the prevailing party, established
that Ms. Earnest’s body was found around noon on December 20, 2007, in her home in Forest,
Virginia. She had died from a single gunshot wound to her head. A .357 handgun was lying
near her right arm, and a typewritten note in the floor nearby appeared to be a suicide note.'
There were no signs of forced entry into the house, but the thermostat had been cranked up to 90
degrees, and the house was hot. Subsequent investigation of the crime scene and the autopsy
were inconsistent with suicide.
Blood pattern analysis of the blood on the carpet indicated that Ms. Earnest’s body was
moved shortly after the shooting and had been drug through the first pool of blood, (Trial Tr. at

2

1222^7.) The angle of the bullet wound, from behind her right ear upward to the front of her
head, just left of her left orbital, was an unusual angle for a self-inflicted wound. Further, Ms.
Earnest had no blood spatter on her hands, and the stippling around the entrance wound had no
soot, suggesting that the gun’s barrel was at least two inches away from her head when fired,
probably closer to two feet. {Id. at 1155-71.) Time of death could not be determined, other than
to say that she had been dead more than 12 hours, because rigor mortis was dissipating by the
time the medical examiner received the body for autopsy on the morning of December 21, 2007.
The higher temperature in the house could also speed the process of rigor mortis, making an
accurate time-of-death determination impossible. {Id. at 1195—99.)
Ms. Earnest’s friend, Marcy Shepherd, with whom Ms. Earnest had been romantically
involved, testified that she had been texting Ms. Earnest on December 19, discussing the
possibility of getting together that evening after Ms. Earnest’s counseling appointment. Her last
text from Ms. Earnest was at 7:28 p.m. According to Wayne East, technician from the security
company, Ms. Earnest’s home security system was disarmed at 7:35 p.m., consistent with her
normal practice; Ms. Earnest did not set the system at night, only when she was away from the
houvse. {Id. at 942.) Shepherd thought that Ms. Earnest may have gone to dinner with a friend,
but when she had not heard from Ms. Earnest after a couple of hours, she was worried and drove
by Ms. Earnest’s home around 9:45 p.m. Ms. Earnest’s car was there, but no one answered the
door, so Shepherd left. Upon learning that Ms. Earnest had not shown up at work by 10:00 a.m.
the next morning, and still unable to reach her on the phone, Shepherd went back to Ms.
Earnest’s house on December 20, between 1.1:30 and noon. Ms. Earnest’s car was in the same
position as the previous evening. After calling Maysa Munsey, a mutual friend who had seen
Ms. Earnest the previous day, Shepherd found the spare key to Ms. Earnest’s home in the back

3

shed and entered the house. On finding the body, she told Munsey, and then both called the
police. (Id, at 1027-34.) Based upon the text messages Ms. Earnest sent and when she turned
off her security system, Ms. Earnest was clearly still alive at 7:35 p.m. By 9:45 or 9:50 p.m.,
when Shepherd came by and saw Ms. Earnest’s car at home, but no one answering the door, Ms.
Earnest may have been dead; that time frame, 7:35 to 9:50 p.m., is what the prosecutor called
“the window” in which the murder occurred. (Id. at 2719.)
Earnest and his wife had been separated for more than two years, and Ms. Earnest had
filed for divorce on grounds of desertion.2 Earnest counter-sued for constructive desertion.
According to Jennifer Stille, Ms. Earnest’s divorce attorney, the divorce was contentious,
particularly regarding financial matters and property. In addition to the marital residence, in
which Ms. Earnest was living, the couple had built a home on Smith Mountain Lake, for which
they had a $900,000 mortgage. Ms. Earnest, a manager at Genworth Financial, made more
money than Earnest, who took a job as an assistant principal in Chesapeake, Virginia, after
separating from his wife, because the Chesapeake school system paid better than what he had
been making in Lynchburg. Earnest wanted to keep the lake house and allow Ms. Earnest to
keep the home in Forest, which was paid for. Ms. Earnest had decided to move forward with
finalizing the divorce, which would force a sale of the lake property, as, realistically speaking,
Earnest could not buy her share. (Id. at 1394-1457.) Police also found writings by Mr. Earnest,
detailing his financial difficulties and accusing Ms. Earnest of stealing their joint tax refund,
hoarding her money while he paid the bills, and otherwise treating him unfairly.
The .357 handgun found with Ms. Earnest, from which the fatal shot was fired, was
purchased by Mr. Earnest several years earlier; he told police that he bought the gun for his wife

2 Uncontested evidence suggested dial Earnest was having an affair with his girlfriend, Shameka, prior to
the separation, which affair was apparently condoned by Ms. Earnest.

4

for her protection. However, the box for the gun was found in Mr. Earnest’s girlfriend’s home
when police executed a search warrant there, and no ammunition for the gun was found in Ms.
Earnest’s home, save for the remaining bullets inside the gun. Her coworkers, friends, and
family testified that they had never seen Ms. Earnest with a gun. No fingerprints were found on
the gun. Two latent fingerprints were developed from the purported suicide note, however. Two
different fingerprint analysts testified that the latent prints on the note belonged to Mr. Earnest,
and no prints of Ms. Earnest were found on the note. A linguist who read over 150 items written
by Ms. Earnest testified that the typed note did not have the writing style, punctuation, or tone of
Ms. Earnest’s writing. Further, the typewritten note was not on Ms. Earnest’s computers and had
not been printed from the printers in her home. (Id. at 2002-2172.)
Although Earnest told police that he had been in Chesapeake, Virginia, just over 200
miles from Ms. Earnest’s home, investigation in Chesapeake raised more doubts for the police.
Earnest’s first landlord in Virginia Beach (for only a couple of months in 2005), Neil Phillips,
said that Earnest made a statement one day following an argument with Phillips’ wife, “Bitches
like your wife and mine should be dead.” (Id. at .1630.)
Earnest’s workday ended at 4:00 p.m., and the drive from Chesapeake to Forest could be
made easily in just over three and a half hours. One coworker interviewed by police, David Hall,
indicated that Earnest borrowed his pickup truck the week of December 17, 2007, saying he was
moving from his rental room to a campground. Hall’s wife testified that Earnest brought the
truck back on Thursday morning, December 20. Earnest apologized to Hall for a bleach stain on
the driver’s side floor mat, where Earnest had tried to clean up after using the truck. (Id. at
1874-91.) The campground manager testified that Earnest did not have a space rented at the
campground until December 26, when Earnest’s mother came in to make the arrangements. (Id.

5

at 1914-1920.) In January, Earnest borrowed the truck again for a single afternoon. When
Earnest returned it, Hall thought the truck handled differently. Hall testified that he later found a
window placard from Kramer Tire in his glove box. When he asked Earnest about the placard,
Earnest said that he had gotten four new tires put on the truck because he had accidentally
punctured two of the tires when he ran over some nails. Hoping to get the two good tires back,
Hall called the Kramer Tire near the high school, but the facility had no record of a truck with his
license plate being there. After calling around to other Kramer Tire locations, Hall found the
truck’s service ticket for new tires in January 2008 at the Virginia Beach store on Providence
Road, much further away than the Chesapeake locations. Hall also learned that service ticket for
his truck was in the name of “Tom Dunbar.” (Id. at 1874-79.)
Rick Keuhne from Kramer Tire testified about the truck tires. He remembered the
incident because the tires on the truck were in good shape, had nothing wrong with them, and did
not need to be replaced. He told Mr. Dunbar that he did not need new tires, but the man insisted
on getting new ones. Keuhne identified the work order, which had the license plate number of
Hall’s truck, with the name Tom Dunbar, an address in Roanoke that turned out to be fictitious,
and a phone number with a West Virginia area code (where Earnest’s parents lived). The tires
were paid for with cash. (Id. at 1921-67.)
Three of Mr. Earnest’s former coworkers in Chesapeake testified that Earnest told them
he was not married and had never been married; Earnest also claimed that he was independently
wealthy to these three persons and to two others who testified. (Id. at 1644-1688; 3 899-1913.)
Significantly, the high school principal where Earnest worked testified that Earnest called her
around 5:00 p.m. on December 21, 2007, and advised her that he was at his lawyer’s office about
to be questioned because his estranged wife had apparently committed suicide because of a failed

6

relationship; this was the principal’s first knowledge that Earnest was married. (Id, at 1795.)
This was also before the police ever provided Earnest information about the circumstances of
Ms. Earnest’s death or the apparent suicide note, a detail that had not been publicly released by
the police. Finally, Jesse McCoy testified that he had made arrangements to pick up Earnest’s
car for detailing during the week of December 17; McCoy suggested December 19, but Earnest
said he would be “on the road” that day, so they agreed for McCoy to pick the car up from the
high school on the morning of December 20. Later, Earnest called McCoy and pushed the pick
up time from 8:00 a.m. to 9:15 a.m., in case he ran late getting back to Chesapeake. {Id. at
1818-38.)
Earnest’s counsel vigorously cross-examined all prosecution witnesses and called expert
witnesses and alibi witnesses on behalf of Earnest. After hearing all the evidence, the jury
deliberated, resolving evidentiary conflicts in the government’s favor, and returned a verdict of
guilty on both charges. (Trial R. at 152-53.) The jury recommended a sentence of life in prison
for first-degree murder and three years (mandatory) for use of a firearm in the commission of the
murder. {Id. at 156-57.) The trial court ordered a pre-sentence report and held a sentencing
hearing on January 25, 2011, after which the court imposed the sentence recommended by the
jury. The court entered the final judgment on February 10, 2011. {Id, at 178-80.)
Earnest appealed his conviction to the Court of Appeals of Virginia, raising numerous
issues:
♦

The trial court’s failure to move the trial to a venue in a different judicial circuit;

•

The trial court’s failure to grant a mistrial and dismiss the entire venire panel upon
learning that members of the venire had talked about the case before voir dire and
jury selection;

7

•

The trial court’s exclusion of the following from evidence:
o

Evidence of “third-party guilt”;

o Telephone records of the victim to show that she had not had contact with
Earnest;
o Telephone records of Marcy Shepherd and a videotape of her police
statement as circumstantial proof that Shepherd destroyed phone records
relevant to the victim’s activities at the time of her death;
o Evidence about Maysa Munsey’s arrest for identity fraud;
o Testimony about how the victim’s Blackberry could have been remotely
reset from her work computer system;
o

Testimony of Jennifer Mnookin as an expert in fingerprint methodology to
contradict certain testimony of the Commonwealth’s fingerprint experts;
and

o

•

Sur-rebutta! evidence from the defense;

The trial court’s admission of the following evidence:
o Testimony about the Earnests’ separation and divorce;
o

Mr. Earnest’s financial condition during time periods two years before and
two years after the victim’s death;

o Testimony that Earnest borrowed Hall’s truck and replaced the tires;
o Testimony of Johnson and Riding that a partial latent fingerprint can be
identified as a match to a known individual;
o Sergeant Neal’s testimony about how long it took him to drive from
Chesapeake, Virginia, to Forest, Virginia; and

8

o

«

A photograph of the cover of the victim’s journal;

The sufficiency of the evidence to support a conviction because the evidence
failed to exclude ‘'every theory of innocence”; and
The trial court’s failure to give a requested jury instruction about fingerprint
evidence.

The Court of Appeals initially rejected the appeal on all issues in a per curiam opinion, but on
petition for consideration by a three judge panel, agreed to consider the appeal only on whether
the trial court erred in refusing to allow Dr. Mnookin3 to testify as an expert witness in
fingerprint methodology and refusing to allow her to contradict Johnson’s testimony that no one
had ever found two different people with the same fingerprint. After considering the issues, the
Court of Appeals affirmed the trial court’s judgment. Earnest v. Commonwealth, 734 S.E.2d 680
(Va. Ct. App. 2012).
Earnest then appealed to the Supreme Court of Virginia, raising several of the same
errors, but the court denied his petition on July 13, 2013. (Addendum to Trial R. at 11.) The
Supreme Court of Virginia denied Earnest’s petition for rehearing on September 23, 2013. (Id.
at 12.) Earnest filed a petition for certiorari in the United States Supreme Court, which the Court
denied. Earnest v. Virginia, No. 13-799 (filed Feb. 24, 2014).
On September 4, 2014, Earnest filed his state petition for habeas corpus in the Amherst
County Circuit Court, He raised three sets of claims: (1) due process violations, including
several allegations of prosecutorial misconduct, plus denial of his right to put on a defense by
excluding evidence of third-party guilt and denial of fair trial by changing venue to another

Dr. Mnookin was a professor of law at UCLA, leaching evidence, and had written extensively aboul the
lack of scientific foundation underlying fingerprint analysis testimony. However, she was not a fingerprint examiner
and had never examined fingerprints herself.

9

location in the same judicial circuit; (2) ineffective assistance of counsel, including failure to
investigate, failing to object to certain evidence, failing to offer a divorce document, and failing
to argue that the victim committed suicide; and (3) evidentiary errors, consisting of most of the
evidentiary issues raised in his direct appeal. (Habeas R. at 2-11.) The court issued a letter
opinion denying the claim, without a hearing, on February 16, 2017. {Id. at 128-41.) The final
order was entered on May 5, 2017. {Id. at 141-48.) On May 22, 2018, the Supreme Court of
Virginia denied Earnest’s appeal, finding no error. {Id. at 172.) The United States Supreme
Court then denied his petition for certiorari. Earnest v. Davis, No. 18-5728 (filed Oct. 15, 2018).
Earnest certified the mailing of the current petition for relief under § 2254 on November
15, 2018, and the petition was received and docketed in the clerk’s office on November 29, 2018.
On August 7, 2019, Earnest mailed a motion for leave to file amended petition, along with his
amended petition. The court granted leave to file the amended petition on August 19, 2019,
without expressing any opinion on the merits of the additional allegations. (Dkt. No. 16.) In his
amended petition, Earnest raises the following issues:
(1) The trial court erred in not allowing a complete defense using exonerating DNA
evidence of blood and hair in the victim’s home to create an alternative theory of
third-party guilt;
(2) Ineffective assistance of counsel for failing to investigate witness reports of police
misconduct;
(3) Commonwealth attorney withheld material, exculpatory evidence of prior statements
of David and Vicky Hall, and ineffective assistance of appellate counsel for failing to
raise the claim on appeal;

10

(4) The trial court erred in not allowing Dr. Jennifer Mnookin to testify as an expert in
fingerprint methodology and to contradict the testimony of the Commonwealth’s
experts;
(5) The Commonwealth withheld (and destroyed) videotape evidence from Great Bridge
High School, showing that Earnest worked until just after 4:00 p.m. on December 19,
2007, and Earnest became aware of this evidence being withheld by the
Commonwealth in May 2039, rendering this new evidence of actual innocence; and
(6) Ineffective assistance of trial counsel in failing to investigate the existence and
disappearance of the videotape.
II. DISCUSSION
Under 28 IJ.S.C. § 2244(d)(1), a petitioner has one year in which to file a federal habeas
corpus petition. The statute of limitations runs from the latest of:
(A) the date on which the judgment became final by the conclusion
of direct review or the expiration of the time for seeking such
review;
(B) the date on which the impediment to filing an application
created by State action in violation of the Constitution or laws
of the United States is removed, if the applicant was prevented
from filing by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D)the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of
due diligence.
Id. Section 2242(d)(2) tolls the statute of limitations during the time in which “a properly filed
application for State post-conviction or other collateral review ... is pending.” In addition to

11

this statutory tolling, the court may equitably toll the statute under some circumstances,
including upon the introduction of new evidence that persuades the court that a reasonable juror
probably would not have convicted the defendant, but for the constitutional errors alleged.
McQuiggin v. Perkins, 569 U.S. 383, 393-95 (2013); Schlup v. Delo, 513 U.S. 298, 327 (1995).
A. Statutory Time Calculation
The United States Supreme Court denied Earnest’s petition for appeal on February 24,
2014, and that is the date on which the one-year statute of limitations began to run. Absent
tolling, the last date for filing his federal habeas petition in this court was February 24, 2015.
However, the “time during which” a properly filed state habeas proceeding was pending tolled
the statute, or stopped the clock from running, when the state petition was filed. Earnest filed his
state petition on September 4, 2014. At that time, 192 days of the statute had passed, and then
the clock stopped. When the state action was no longer pending, the clock resumed at the point
where it was when it stopped; the one-year period did not start over again. Harris v. Hutchinson,
209 F.3d 325, 327 (4th Cir. 2000).
Under § 2244(d)(1)(A), a judgment of conviction becomes final at “the conclusion of
direct review or the expiration of the time for seeking such review.” The Supreme Court has
interpreted direct review of a conviction to include review by the Court. Clay v. United States,
537 U.S. 522, 527-28 (2003). However, the Court expressly declined to interpret § 2244(d)(2)
the same way, because that section is worded differently and refers to a different type of
litigation. State post-conviction review ends when the state courts have resolved the issue; “after
the State’s highest court has issued its mandate or denied review, no other state avenues for relief
remain open.” Lawrence v. Florida, 549 U.S. 327, 332 (2007). After the State’s highest court
has dispensed with the matter, state post-conviction relief is no longer “pending.” Id. Therefore,

12

Earnest’s state post-conviction relief ended on May 22, 2018, when the Supreme Court of
Virginia denied his state habeas appeal. The statute of limitations was not tolled during the
pendency of Earnest’s petition for certiorari in the state habeas case. Accordingly, the clock
resumed on May 22, 2018, with 173 days remaining. Earnest’s 173 days ended on November
11, 2018, which was a Sunday, and Monday, November 12, 2018, was a federal holiday, making
Earnest’s petition due on November 13, 2018. According to his certificate of service, Earnest
mailed the petition on November 15, 2018, two days after it was due, rendering the petition
untimely under the statute,
B. Equitable Tolling
The statute of limitations for habeas petitions is subject to equitable tolling. Holland v.
Florida, 560 U.S. 631,636 (2010). To receive the benefit of equitable tolling, however, a
petitioner must show (1) that he has been pursuing his rights diligently and that (2) some
extraordinary circumstances prevented his timely filing. Id. at 649. The length of the delay does
not guide the determination; the court considers only the reasons for delay in determining
whether equitable tolling is appropriate. Rouse v. Lee, 339 F.3d 238, 253 (4th Cir. 2003).
Earnest has failed to show that extraordinary circumstances prevented the timely filing of
his petition. His stated reasons for untimely filing are (1) that he thought he had to wait until the
Supreme Court considered his petition for certiorari before he could file, unless he received a
waiver or permission to file sooner, and (2) lack of access to the law library during prison
lockdowns lasting 15 days during the 31 days prior to the due date and another nine days in
August and September. Neither reason qualifies as an extraordinary circumstance.
Mistaken calculation of the filing deadline, whether by counsel or by a pro se litigant, is
not generally an extraordinary circumstance entitling a petitioner to equitable tolling. Holland,

13

560 U.S. at 651. Neither is ignorance of the law, “even in the case of an unrepresented
prisoner.” United Stales v. Sosa, 364 F.3d 507, 512 (4th Cir. 2004). Earnest’s failure to realize
that the time his petition for certiorari to the Supreme Court was pending did not toll the statute
of limitations is simply ignorance of the law, law that has been firmly established by the
Supreme Court since 2007. To the extent he thought he needed a waiver to file his petition while
the matter was still pending before the Supreme Court, Earnest never filed a request for such
waiver or permission to file his petition in this court and stay the proceedings pending the
outcome of his certiorari petition.
Limited access to the law library has not generally been considered an extraordinary
circumstance, either. Kreutzer v. Bowersox, 231 F.3d 460, 463 (8th Cir. 2000) (“Even in the
case of an unrepresented prisoner alleging a lack of legal knowledge or legal resources, equitable
tolling has not been warranted.”); Atkins v. United States, 204 F.3d 1086, 1089 (11th Cir. 2000)
(rejecting a claim of equitable tolling when petitioner alleged that two prison lockdowns
prevented him from using the library for a six month period); Ramirez v. Yates, 571 F.3d 993,
998 (9th Cir. 2009) (holding that normal restrictions on law library access, including during stays
in administrative segregation, are not “extraordinary” for purposes of equitable toiling). Even if
one were to consider such limited access extraordinary, Earnest cannot show that limited access
prevented him from fling his petition in a timely manner. As noted by the Tenth Circuit Court
of Appeals in Marsh v. Soares, the claims petitioner asserted were the same as those already
presented in his state habeas case. Marsh, 223 F.3d 1217, 1221 (10th Cir. 2000). Likewise,
Earnest has necessarily raised the same claims (for exhaustion purposes) either in his state
appeal, in his state habeas, or both, making additional access to the law library less essential to

14

filing the same arguments before this court. See also Hizbullahankhamon v. Walker, 255 F.3d
65, 76 (2d Cir. 2001).
For these reasons, Earnest has failed to show circumstances entitling him to equitable
tolling of the statute of limitations.
C. Actual Innocence
The Court has recognized a miscarriage-of-justice exception in an effort to “balance the
societal interests in finality, comity, and conservation of scarce judicial resources with the
individual interest in justice that arises in the extraordinary case.” Schlup, 513 U.S. at 324. A
credible claim of actual innocence must be supported by new reliable evidence. Id.
Without any new evidence of innocence, even the existence of a
concededly meritorious constitutional violation is not in itself
sufficient to establish a miscarriage of justice that would allow a
habeas court to reach the merits of a barred claim.
Id. at 316. The video upon which Earnest bases his actual innocence claim is not new. He and
his counsel were aware that Great Bridge High School had a security system that recorded
random video images throughout the school. Indeed, as Earnest states in his amended petition,
the government produced in discovery a transcript of conversation between the school principal,
the prosecuting attorney and Investigator Mayhew, which occurred at the high school on January
22, 2008, in which the principal advised that the video system recorded over itself after 30 days,
and thus video of December 19 and December 20, 2007, was no longer available. Evidence that
is known, but only newly available, does not constitute newly discovered evidence and cannot
toll the habeas statute of limitations. Sistrunk v. Roz.um, 674 F,3d 181, 189 (3d Cir. 2012). See
also Johnson v. Medina, 547 F. App’x. 880, 885 (10th Cir. 2013).
Earnest does not have a video recording to offer even now, so one cannot say that the
video is available, either. He alleges that the police received a copy of the video recording from
15

school officials and then destroyed it. He bases this allegation on statements purportedly made
to a representative of the Hamilton Firm, PLC, in May 2019 by Bob Berry, counsel for the
Chesapeake City School Board. Earnest asserts that Berry told the Hamilton Firm that the school
superintendent preserved the video and made it available to the Bedford County law enforcement
officers in December 2007. (Mot. to Am./Am. Pet. at 7, Dkt. No. 15.) Earnest has provided
neither an affidavit nor anything in writing from the Hamilton Firm or from Bob Berry to support
his claim, but he immediately jumps to the conclusion that the government received the video
and then destroyed it.
The prosecutor on the case, Wesley Nance, and the lead investigator during December
2007, Gary Babb, each filed an affidavit indicating that he had neither requested nor recei ved
any video surveillance footage of Great Bridge High School from anyone. (Aff. of Nance, Ex. N
to Br. in Supp. of Second Mot. to Dismiss, Dkt. No. 20-1; Aff. of Babb, Ex. O to Br. in Supp. of
Second Mot. to Dismiss, Dkt. No. 20-2.) Whether agents of the Commonwealth ever possessed
this evidence in the form now alleged by Earnest is clearly disputed.
Having never seen the video, Earnest can only speculate on its contents, including
whether the random images collected included images of him around 4:00 p.m. on December 19,
2007. Assuming that the video existed and showed Earnest leaving the high school shortly after
4:00 p.m., as he initially told investigators and as he testified at trial (Trial Tr. at 2540), the video
merely corroborates uncontradicted testimony given at trial by Earnest and by defense witness AI
Ragas. {Id. at 2296-2397.) The prosecutor never disputed that Earnest left the high school
around 4:00 p.m. Rather, the state’s theory of the case was that Earnest had time to drive to
Forest, Virginia, and commit the murder after he left the school. {Id, at 2782-84.) For this
reason, even if the video were found and were considered new evidence, Earnest could not

16

establish the second part of the actual innocence/miscarriage of justice exception: Earnest has
not established that, in light of the new evidence, it is more likely than not that no reasonable
juror would have found him guilty beyond a reasonable doubt. Schfup, 513 U.S. at 327. In
determining whether, in light of the new evidence, no reasonable juror would find the defendant
guilty, the federal habeas court must consider all evidence, old and new, admissible and
excluded, “to make a probabilistic determination about what reasonable... jurors would do.” Id.
at 328-29. The jury already knew that Earnest did not get off work until 4:00 p.m. There is no
reason to conclude that the video, if it exists, would show anything else. The evidence is ample
to support reasonable jurors in concluding that Earnest had time to travel to Forest and commit
the murder after he left work. Earnest has failed to establish “actual innocence” as grounds for
considering his untimely claims.
III. CONCLUSION
For the reasons stated, the court will grant the respondent’s motion to dismiss. Further,
concluding that Graham has failed to make a substantial showing of the denial of a constitutional
right as required by 28 U.S.C. § 2253(c)(1), a certificate of appealability will be denied,
An appropriate order will be entered.
Entered: September 30, 2020.

Elizabeth K. Dillon
United States District Judge

17

VIRGINIA:
Jn the Supreme Gawd <4 Virginia held at the Supreme Qxswit fBuiiding in the
Qitg of- Jlichmend on Jueadag the 22nd dag of Mag, 2C18.
Appellant,

Wesley Brian Earnest,
against

Record No. 171028
Circuit Court No. CL14009211
Appellees.

Keith W. Davis, Warden, etc., et al,
From the Circuit Court of Amherst County

Upon review of the record in this case and consideration of the argument
submitted in support of and in opposition to the granting of an appeal, the Court is of the opinion
there is no reversible error in the judgment complained of. Accordingly, the Court refuses the
petition for appeal.

A Copy,
Teste: p£((ricia L. Harrington, Clerk
By:

U/

I >ep«ty (Clerk

ix
Hearings

A ^

Ill
‘;

■

VIRGINIA:
IN THE CIRCUIT COURT OF AMHERST COUNTY
WESLEY BRIAN EARNEST,
Petitioner,
Case No. CL14009211

v.
i

b

KEITH W. DAVIS, WARDEN,
Sussex I State Prison, and
HAROLD W. CLARICE, Director
of Virginia Department of Corrections,
Respondents.

i

ORDER

?
CD
3.

<Ol

Upon mature consideration of the petition of Wesley Brian Earnest for a
writ of habeas corpus, the motion to dismiss of the respondents, the petitioner's

3

s

o
3
£

response to motion to dismiss and the authorities cited therein, and a review of
the record in the criminal case of Commonwealth v. Wesley Brian Earnest, which

i

is hereby made a part of the record in this matter, the Court finds for the
following reasons that the petitioner is not entitled to the relief sought.
The petitioner raised the following claims in his petition:
A.

i

His due process rights were violated because:
1.

The prosecutor intimidated witnesses;

u.

The prosecutor withheld exculpatory evidence;

in.

The police attempted to elicit a confession from the
petitioner in the absence of his attorney;

!•;

■v ft I
i

It

D

B.

C.

IV.

The court erred in excluding third-party evidence;

v.

The court erred by changing venue to this Court;

vi. .

The prosecutor made inflammatory arguments in his
closing;

Vll.

The Commonwealth failed to preserve evidence.

Petitioner’s attorneys were ineffective for:
1.

Failing to investigate exculpatory evidence and police
misconduct;

11.

Failing to investigate authenticity and chain of custody
of evidence;

m.

Failing to investigate whether charging documents
were unconstitutionally obtained;

IV.

Allowing improper evidence to go to the jury in an
earlier trial;

v.

Not objecting to evidence of the petitioner’s illegal entry
into the home;

vi.

Not preparing a defense of suicide;

Vll.

Failing to have a divorce document admitted into
evidence;

The trial Court erred in:
1.

Not allowing an expert witness to testify;

li.

Allowing certain testimony by Commonwealth’s
witnesses;

m.

Moving the trial to this Court;

IV.

Allowing evidence of time to travel to the scene of the
crime;

2

Support Commander

v.

Allowing evidence about David Hall’s truck.

The Court finds that claims A and C could have been raised at trial and on
appeal.

The Court further finds that C(i) and C(ii) were presented on direct

appeal.
With respect to claim B(i) which alleges the attorney failed to investigate
exculpatory evidence, the Court finds that petitioner has failed to name any
witness who could provide evidence of police misconduct and has not even
identified the officer alleged to be guilty of misconduct. The Court further finds
that the petitioner has not identified any other witnesses who could have
testified for him or provided any alibi evidence and has not proffered any
testimony or explained how any such evidence would have assisted his case.
The Court further finds that the petitioner has not identified the witness
allegedly threatened by agents of the Commonwealth. On the other hand, the
Court finds that the attorney presented at least three alibi witnesses. The Court
further finds that the petitioner has failed to show that the attorney’s
performance was deficient or that he was prejudiced by any of the alleged acts or
omissions of his attorney.
With respect to claim B(ii) alleging the attorney failed to investigate the
authenticity and chain of custody of certain evidence, the Court finds that the
Commonwealth provided a reasonable foundation for admission of David Hall’s
sign-in sheet. The Court further finds that the sign-in sheet was not used to
change Hall’s testimony. The Court further finds that the petitioner has failed to

3

Support Commander

show that the attorney’s performance was deficient or that he was prejudiced by
any of the alleged acts or omissions of his attorney.
With respect to claim B(iii) which alleges the attorney failed to investigate
whether the charging documents were constitutionally obtained, the Court finds
that there is absolutely nothing in the record to suggest any defect or deficiency
in any of the charging documents,

Consequently, the Court finds that the

petitioner has failed to show that the attorney’s performance was deficient or
that he was prejudiced by any of the alleged acts or omissions of his attorney.
With respect to claim B(iv) alleging the attorney failed to prevent
inadmissible evidence being given to the jury during deliberations, the Court
finds that the inadmissible journals were provided to the jury in the first trial
without the knowledge of defense counsel and without his involvement so that
any error was inadvertent. The Court further finds that the petitioner has failed
to show that the attorney’s performance was deficient or that he was prejudiced
by any of the alleged acts or omissions of his attorney.
With respect to claim B(v) where the petitioner claims the attorney failed to
object to questions about the petitioner’s prior unauthorized entry into the
victim’s home, the Court finds that the evidence of such entry was probative of
the petitioner’s having knowledge of how to gain entry into the home without the
use of force.

The Court further finds that the evidence was probative of his

having the means to commit the offenses as they were committed and in a
manner that was consistent with the appearance of suicide. The Court further

4

Support Commander

that the probative value of this evidence outweighed any incidental prejudice.
The Court further finds that the petitioner has failed to show that the attorney’s
performance was deficient because he failed to object to admissible evidence.
The Court further finds that the petitioner has not shown that he was prejudiced
by any of the alleged acts or omissions of his attorney.
With respect to claim B(vi) which alleges the attorney failed to present a
defense that the victim killed herself the Court finds that the attorney adopted a
reasonable strategy of arguing that the Commonwealth had not proven his
' client’s guilt beyond a reasonable doubt.

The Court further finds that the

attorney was aware of the strength of the Commonwealth’s evidence offered to
negate suicide. The further finds that relying on a suicide defense would have
justified the admission of the victim’s journals which would have been very
damaging to the petitioner’s case. The Court further finds that the attorney was
able to present alibi witnesses, placing the petitioner in Chesapeake on the day
of the murder. The Court further finds that the attorney offered expert testimony
supporting

his

defense

and

emphasized

the

suspicious

behavior

of

acquaintances of the victim. The Court finds that the attorney’s strategy was
reasonable.

Consequently, the Court further finds that the petitioner has failed

to show that the attorney’s performance was deficient or that he was prejudiced
by any of the alleged acts or omissions of his attorney.
With respect to claim B(vii) alleging the attorney failed to present a divorce
document showing that the murder weapon was in the possession of the victim,

5

Support Commander

the Court finds that the petitioner has failed to identify the document or to state
its contents. The Court further finds that because the divorce was in an early
stage, the petitioner has not shown that there was any document that would
have proven what he wanted and still be admissible against a hearsay objection.
The Court further finds that box containing the gun when it was purchased was
at the home of the petitioner’s girlfriend and that no ammunition for the gun was
found in the victim’s home. The Court further finds that the petitioner has failed
to show that the attorney’s performance was deficient or that he was prejudiced
by any of the alleged acts or omissions of his attorney.
Consequently, the Court rules that since claims A and C are nonjurisdictional issues that could have been raised at trial and on direct appeal,
they are not cognizable in a habeas corpus proceeding under Lawlor v. Warden,
288 Va. 223, 764 S.E.2d 264 (2014) and Slayton v. Parrigan, 215 Va. 27, 205
S.E.2d 680 (1974). The Court further rules that claims C(i) and C(ii), having
been presented on direct appeal, are also barred by Henry v. Warden, Riverside
Regional Jail, 265 Va. 246, 248, 576 S.E.2d 495, 496 (2003).
The Court further rules that under the criteria set forth in Strickland v.
Washington, 466 U.S. 668 (1984), the petitioner has not shown that his attorney
was ineffective and that, therefore, claim B should be dismissed.
For the foregoing reasons and for the reasons set forth in this Court s
opinion letter of February 16, 2017, the Court believes that the petition for a writ
of habeas corpus should be denied and dismissed; it is, therefore,

6

Support Commander

ADJUDGED and ORDERED that the petition for a writ of habeas corpus
be, and is hereby, denied and dismissed, to which action of this Court the
petitioner's exceptions are noted.
The Clerk is directed to forward a certified copy of this Order to the
petitioner, Jack T. Randall, Esquire, counsel for the petitioner and Eugene
Murphy, Senior Assistant Attorney General, counsel for the respondents.

Enter thi

I ask for this:

Counsel for Respondents
Seen and objected to:

ri

I

r&K.

4it

*
f A r

V<IS>AK. fulceJ

Counsel for Petitioner
J

.

/ J^ ~—- . Ill

/

A-j ujj^~ l ^ /

i,oko

A Copy, Taste:
Deborah Coffey Mozingo, Clerk

Bv: O

C

-. .
Deputy1tlerk
Circuit Court Amherst County, VA

7

Support Commander

»o J

E
\/ i

i /Q

2

CoMr+

VIRGINIA:
the

dooa&t ofdd&<joMtico heM cot the ^dufew&noe doou&t ^»tdldtn^ on- the

doot^- of 0l^chmoneh 040

Monday

the

29th

daAf of

July,

Appellant,

Wesley Brian Earnest,
against

2013.

Record No. 130018
Court of Appeals No. 0366-11-3
Appellee.

Commonwealth of Virginia,
From the Court of Appeals of Virginia

Upon review of the record in this case and consideration
of the argument submitted in support of the granting of an appeal,
the Court refuses the petition for appeal.

A Copy,
Teste:
L
By:

lerk

Jlx I |t
Support Commander

rjfington, Clerk

f;
<r
3

cJTie
i-

;

t

Supreme Court oj CDirginia
RECORD NO.

J_3do If

>
i
r

COURT OF APPEALS RECORD NO. 0366-11-3

!•

<
i

i
s

WESLEY BRIAN EARNEST,

?

Petitioner - Appellant,

r

V.
in
2.

<OJ
3

$
o
5
3

;

COMMONWEALTH OF VIRGINIA,
Respondent - Appellee.

CORRECTED PETITION FOR APPEAL
i:

:

i;

i

Joseph A. Sanzone (VSB No. 20577)
G. Blair Sanzone (VSB No. 75382)
Sanzone & Baker, L.L.P
1106 Commerce Street
Post Office Box 1078
Lynchburg, Virginia 24505
(434) 846-4691 (Telephone)
(434) 528-5264 (Facsimile)
valaw@sanzoneandbaker.com
Counselfor Petitioner - Appellant

I:
: ■

i.

THE LEX GROUP ♦ 1108 East Main Street ♦ Suite 1400 ♦ Richmond, VA 23219
(804) 644-4419 ♦ (800) 856-4419 ♦ Fax: (804) 644-3660 ♦ www.thelexgroup.com

il
i

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES

i

NATURE OF THE CASE AND
MATERIAL PROCEEDINGS BELOW

1

ASSIGNMENTS OF ERROR

2

STATEMENT OF FACTS

5

13

ARGUMENT
!

1.)
Ct
2.

Error regarding Fingerprint Expert

13

Standard of Review

13

Argument and Authorities....................

13

Error regarding basis for Expert testimony,
confrontation clause and jury instruction...

20

<

s

O

5
3

2.)

3.)

f

Standard of Review

20

Argument and Authorities...........

21

Error Regarding Change of Venue and
Objection to the Venire.........................

27

Standard of Review

27

Argument and Authorities

27

u
I;)
!■!

4.)

Error regarding Driving Experiment

ri

8
5.)

6.)

28

Standard of Review

28

Argument and Authorities.....................

29

Error regarding excluding relevant evidence
improperly termed "third party guilt"...........

30

Standard of Review

30

Argument and Authorities

30

Error regarding tire evidence..

33

Standard of Review

33

Argument and Authorities

33

=3.

<
QJ

s

O

CONCLUSION

35

i

CERTIFICATE

37

3?
&

n
I

i

\
r

II
!
If

i
TABLE OF AUTHORITIES
Paaefsl
CASES

I:

Abdell v. Commonwealth.
173 Va. 458, 2 S.E.2d 293 (1939)

32

Augustine v. Commonwealth.
226 Va. 120, 306 S.E.2d 886 (1983)

31

Bolling v. Bowen.
682 F. Supp. 864 (W.D. Va. 1988)

17

Brittle v. Commonwealth.
222 Va. 518, 281 S.E.2d 889 (1981)

28

Bullcomina v. New Mexico,
0910876 (2011)
564 U.S.

24

Chrisman v. Commonwealth.
3 Va. App. 371, 349 S.E.2d 899 (1986)

32

Commonwealth v. Sands.
262 Va. 724, 553 S.E.2d 733 (2001)...

....21, 26

2.

<
S
o

if

L

Compton v. Commonwealth.
219 Va. 716, 250 S.E.2d 749 (1979)

16

Courtney v. Commonwealth.
281 Va. 363, 706 S.E.2d 344 (2011)

33

I

Crane v. Kentucky.
476 U.S. 683 (1986)

20, 25

Crawford v. Washington.
541 U.S. 36 (2004)

24
mi

H
;;

i

Dowdv v. Commonwealth.
278 Va. 577, 686 S.E.2d 710 (2009)

15

Evans-Smith v. Commonwealth.
5 Va. App. 188, 361 S.E.2d 436 (1987)

34

Giles v. California.
554 U.S. 353 (2008)

24

Green v. Commonwealth.
262 Va. 105, 546 S.E.2d 446 (2001)

28

2

Herndon v. Commonwealth.
280 Va. 138, 694 S.E.2d 618 (2010)

29, 30, 33

\

Hodaes v. Commonwealth.
26 Va. App. 43, 492 S.E.2d (1997)

2

;
i

17, 21

Cl
2.

<

Q)

8
o
3
8

John v. Im,
263 Va. 315, 559 S.E.2d 694 (2002)

29

Keane v. Kentucky.
476 U.S. 683 (1986)

15

Keesee v. Doniaan,
259 Va. 157, 524 S.E.2d 645 (2000)

30

Kirk v. Commonwealth.
21 Va. App. 291, 464 S.E.2d 162 (1995)

14

Landis v. Commonwealth.
218 Va. 797, 241 S.E.2d 749 (1978)

13

r

?

S

Melendez-Diaz v. Massachusetts,
557 U.S. 305 (2009)
Payne v. Commonwealth.
277 Va. 531, 674 S.E.2d 835 (2009)
IV
li

15, 23
16

!
i;1

!'■

i..

Poindexter v. Commonwealth.
218 Va. 314, 237 S.E.2d 139 (1977)
Ramsev v. Commonwealth.

200 Va. 245, 105 S.E.2d 105 (1958)

i
■i

27

26

Ravenwood Towers. Inc, v. Woodvard,
244 Va. 51, 419 S.E.2d 627 (1992)

31

Spencer v. Commonwealth,
240 Va. 78, 393 S.E.2d 609 (1990)

17, 20

*

i

ffi

State of Maryland v. Brvan Rose.
Circuit Court of Baltimore County,
Case No. K06-545 (Oct. 19, 2007)

25

State v. Dietz.
182 W. Va. 544, 390 S.E.2d 15 (1990)

16

State v. Frasher.
164 W. Va. 572, 265 S.E.2d 43 (1980)

32

S'

S
8
o
3?
8

Street v. Street,
25 Va. App. 380, 488 S.E.2d 665 (1997)

17

Thomas v. Commonwealth,
187 Va. 265, 46 S.E.2d 388 (1948)

31

Tuaale v. Commonwealth,
228 Va. 493, 323 S.E.2d 539 (1984)

28

U.S. v. Mickens,
837 F. Supp. 745 (S.D. W. Va. 1993), affd,
53 F.3d 329 (4th Cir. 1995) ............................

15

Va. Fin. Assocs. v. ITT Hartford Group, Inc..
266 Va. 177, 585 S.E.2d 789 (2003)...

16

i I

v
U:

i

Walker v. Commonwealth.
280 Va. 227, 704 S.E.2d 124 (2011)
Watson v. INCO Alloys Int'l, Inc.,
209 W. Va. 234, 545 S.E.2d 294 (2001)
i

?

Webb v. Texas.

13, 20
17
15, 20

409 U.S. 95 (1972)
CONSTITUTIONAL PROVISIONS
U.S. Const, amend. VI

15, 24

U.S. Const, amend. XIV

15, 24

OTHER AUTHORITIES
2.

ai
3

S
o
3?
£

National Academy of Sciences Report
published bv the Department of Justice,
Strengthening Forensic Science in the
United States A Path Forward.................

16

The National Academy of Sciences Report on
Forensic Sciences: What it Means for the
Bench and Bar.
The Honorable Harry T. Edwards, presentation
at the Conference on The Role of the court in
an Age in Developing Science & Technology,
Washington, D.C., May 6, 2010..........................

16

Scottish Government, "The Fingerprint
Inquiry" (Dec. 2011)..............................

23

r
i

\

\
)

VI
I:

I
I

'■!

NATURE OF THE CASE AND
MATERIAL PROCEEDINGS BELOW
All references herein are to the record filed in this
Court. References to the trial transcript are designated as
(t. page number), and references to the sentencing
transcript are designated as (S. page number). References

(ji

to the record are designated as (R. page number).

I •

References to exhibits are designated as (E. number).
References to proffered testimony will be designated as
2.

<fu

(name of witness, page number).

2

s

o
5
8
i' i

•r'

i

On May 6, 2008, Wesley Earnest was indicted for first
degree murder of his estranged wife Jocelyn Earnest and use
of a firearm in Bedford County. (R. 1-3).

He was tried and

found guilty of both offenses in Bedford Circuit Court on
April 5, 2010. The verdict was set aside on July 14, 2010,
and a mistrial order was entered on July 26, 2010. A
change of venue was granted on motion of the defendant
and the second trial took place over defendant's written
objection in the town of Amherst, with a Nelson County
venire, beginning November 8, 2010.
1

V

l!

!■'

!:i

On November 19, 2010, the jury returned a guilty
verdict against Earnest for first degree murder and use of a
firearm. (T. 2864). The jury recommended life
imprisonment plus three years. (T. 2888), which the Court
imposed on February 10, 2011. (R. 175).

!!'

Earnest duly noted his exceptions and filed his Notice of
Appeal with the Virginia Court of Appeals on February 18,
1

I1:

2011. A writ was granted and the Virginia Court of Appeals

Hi;

issued its published opinion on December 4, 2012. The

Cl

2.

<Ol
2

defendant has timely noted his appeal to the Virginia Court

rp

O

3
8
r;

of Appeals and through this petition for appeal, appeals the
decision of the Virginia Court of Appeals and the decision of

!!■:

the Trial Court.
ASSIGNMENTS OF ERROR
1.)

l
l

Error regarding Fingerprint Expert.

The Trial Court erred in not allowing Jennifer Mnookin
to testify as an expert in fingerprint methodology, or
contradict the testimony of the Commonwealth's expert
witnesses. The Virginia Court of Appeals erred by affirming
the decisions and rulings of the Trial Court and by holding
that the Trial Court did not abuse its discretion in failing to
allow Jennifer Mnookin to testify as an expert witness in
fingerprint methodology or contradict the testimony of the
2

j;

i,

T1

H
■I

:I
I

;i •

j|
I

Commonwealth's expert witnesses, since record proved that
she was clearly qualified. (Error preserved by R. 14, T. 1999
L6-25, T. 2204, L12-19, T. 2204, L2-25, T. 2214 LI, T. 2214
L2 - T. 2229 LI, R. 158, S14 L14- S19 LI, T. 2139 L10, T.
10 L12 - T. 11 L9, R. 158.)
2.)

1:

i:

• i
i

ji

u
S'

s

3

Error regarding basis for Expert testimony,
confrontation clause and jury instruction.

The Trial Court erred in allowing Andrew Johnson and
Kenneth Riding to testify that a partial latent print can be
identified as being an unqualified match to a known print of
an individual and in refusing a jury instruction on this point.
The Court of Appeals erred in affirming the Trial Court's
decisions and rulings and in holding that the trial court did
not abuse its discretion. (Error preserved by R. 14, T. 2016
L15-17, T. 2026 L22-24, T. 2034 L6-7, T. 2115 L19 - T.
2125 L13, T. 2134 L8-10, T. 2139 L 10-12, T. 2736 L4-5, T.
2737 L24, T. 2738 L2-23, R. 134-137).

S
o

3
£

i|

3.)

Error Regarding Change of Venue and Objection
to the Venire.

j

J!

1
i

-I

t
I

I

i

I•

The trial court erred when it granted a change of venue
but then only moved the trial to another town within the
judicial circuit, thereby subjecting the second jury to the
same taint from "out-of-court" information influencing the
jury pool as a jury from Bedford County, and by not granting
defendant's objection to the venire once it was learned that
the jury pool was tainted. The Virginia Court of Appeals
erred by affirming the Trial Court decisions and ruling and by
holding that the objection to the venire should not have
been granted because the record did not show that the
potential jurors performance of duty as jurors was prevented
or substantially impaired, and by otherwise failing to
consider the defendant's objection to the venire. (Error
preserved by written objections filed September 10, 2010, T.
345 L14 - T. 349 L3, T. 397 L9 - T. 398 Lll).
3

4.)

Error regarding Driving Experiment.

The Trial Court erred in admitting an impermissible
speculative experiment regarding the time it takes to travel
from Chesapeake to Jocelyn's Pine Bluff residence in Forest.
The Court of Appeals erred in affirming the decisions and
ruling of the Trial Court and in holding that Officer Neal's
personal observations of his driving time covering several
hundred miles on a route that could not be shown to be a
route that the defendant took was relevant admissible, and
not speculative. (Error preserved by T. 1741 L16 - T. 1745
L4).
5.)

<

Error regarding excluding relevant evidence
improperly termed "third party guilt".

The trial court erred in excluding relevant evidence of
what the court termed "third-party guilt" and improperly
grouped various defense theories into the category of
"third-party guilt." The Virginia Court of Appeals erred by
affirming the trial courts decisions and ruling regarding
these matters and in holding that the proffered relevant
evidence that is characterized by the Appeals Court and the
Trial Court as "third party guilt evidence" merely suggested
someone else may have committed the offense and was not
otherwise admissible and that the exclusion of such relevant
evidence was a proper exercise of discretion by the Trial
Court. (Error preserved by T 399 L6 - T. 417 L10, T. 2461
LI - T. 2473 L19, S13 L2 - S14 L13, T. 2381 L9 - T. 2389
Le, T. 2403 L4 - T. 2412 L17, T. 2384 L 15-25, T. 2390
L8 - T. 2399 L8, T. 2461 LI - T. 2466 LI, T. 2382 L22 - T.
2384 L6, T. 2399 L9 - T. 2412 L4).

4

r

6.)

I:

if

I;

i.

Error regarding tire evidence.

The Trial Court erred in admitting speculative evidence
concerning David Hall's truck and replacement of tires. The
alleged occurrence of any such events was too remote in
time and there is no evidence of tire marks or the vehicle at
the scene. The prejudice of this evidence outweighs its
probative value. The Court of Appeals erred by affirming the
decisions and ruling of the Trial Court and by holding that
the speculative evidence was admissible, and by erroneously
relying on an assertion that the defendant changed the tires
after being confronted by the police, and other errors of fact,
and by holding that the probative value of this evidence was
not outweighed by its prejudicial effect. (Error preserved by
R. 46, T. 1929 L16 - T. 1930 L13).
STATEMENT OF FACTS

z.

<

O)
3

8
o
3?
£
i

In December 2007 Jocelyn Earnest was employed at
Genworth Financial as a supervisor at the financial
institution. She had been separated from her husband since

i

2004. Jocelyn lived on Pine Bluff Drive in the Bedford
County suburbs of Lynchburg, and her estranged husband
Wesley lived in Chesapeake, Virginia.
In June 2006, Jocelyn filed for divorce, alleging
desertion. Wesley counter-claimed alleging constructive
abandonment. (T. 1348-1351, 1372). In December, 2006,
a pendente lite hearing was held in Bedford Circuit Court

5

fll

;

during which the Court ordered that Wesley Earnest would
i:

!•!

1:1

have exclusive use and possession of the Smith Mountain
Lake house and Jocelyn Earnest would have exclusive use
and possession of the Pine Bluff marital residence. (T. 860,

il

:
!,■

1373, 2640). With their attorneys, Jocelyn and Wesley
discussed property settlement proposals in Jocelyn's

r:

attorney's office on February 19, 2007. (T. 2517) (T. 1411,

1

1384-1385). The couple agreed to pay their only remaining
n

mortgage debt on the lake house through escrowed money
<n
2.
<QJ
3

they had received on the sale of the rental house which they

£
o
5
S

had previously owned. (T. 2652). The escrow account was

n

H

managed exclusively by their attorneys and was more than
adequate to handle the debt. There were no ongoing
disputes regarding support or other property, and the couple
did not have children.
At the time of the pendente lite Hearing and through
the time of Jocelyn Earnest's death, Jocelyn earned slightly
over $100,000 per year, and Wesley earned around

f:

6
y
I.:,

!•

i
$70,000. Wesley and Jocelyn never met face-to-face after
the February 19, 2007 meeting. (T. 1409).

1

In 2006, Jocelyn changed the locks to her home and
installed a security system which only Jocelyn and her
friends Maysa Munsey and Jennifer Kerns could operate. (T.

806, 831).
In 2005, Jocelyn entered into an intimate relationship
with Marcy Shepherd who stated at trial that she was the
"new love" in Jocelyn's life. (T. 1052-1055, 1096).
G1

<0)

In December, 2006, Jennifer Kerns and Jocelyn went

3rt>
O

3
£

and removed virtually all items, including furniture,

r

electronics, and office supplies including paper, from the
•■I

M

\
i!

ji

lake house (T. 2372-2375, 2524), which was confirmed by
a neighbor, David Wilson. (T. 2417-2419).

j

On the morning of December 19, 2007, Jocelyn armed
1.

her home security system at 7:34 a.m. and met Maysa
:
i

Munsey and went with her to the Amherst Sheriff's office
where Maysa Munsey was arrested for identity theft. (T.

,

f

2434-2440). Throughout that afternoon, Jocelyn was

H
7
ii

r
i

!•

exchanging text messages with Marcy Shepherd about
getting together sometime that evening. (T. 1011-1014).
Jocelyn attended her counseling session with Roehrich from
5:00-6:00 p.m. (T. 962). At 7:35 p.m. her home security
system was disarmed. (T. 940-942).
Jocelyn Earnest died some time on the evening of

l

i

December 19, 2007. She was dressed as though she had
just entered her home. The last anyone heard from her was
l

an e-mail at 7:28 p.m., most likely from her Blackberry,
Ci

r.

<

3

approving an employee's time card. (T. 816, 894-896,

S
o
3?
£

2487). Jocelyn was also texting with Marcy Shepherd at the

Ol

same approximate time. Jocelyn's friend, Marcy Shepherd
t.

stated she had planned to meet Jocelyn on the evening of
December 19 and had driven to Jocelyn's house but claimed

i

that she did not go in. Shepherd went to Jocelyn's home at

!,

11:30 a.m., claimed to get a spare key in the shed, and
i
i

entered the house where she found Jocelyn's body. (T.
1030-1044). The police were called and arrived after 12:00

p.m. (T. 530). Neither Shepherd or Munsey were processed
8
l_L

r
' I:

for gunshot residue, nor were their vehicles searched. (T.
562, 759-760, 818). Shepherd told the police about her
texts and phone calls with Jocelyn on December 19, 2007,
and though two of the messages interested Investigator
i

Mayhew, the police did not examine or seize her phone until
weeks later because she was reluctant to give it to them. (T.

789-790, 1082). When Shepherd did relinquish her phone,
selective text messages beginning December 19, 2007 had

t

been deleted and could not be retrieved. (T.

£71

<O)
3(T>

795-797, 1088).

O

3
£

Officer Mayhew stated that there were no points of

r

forced entry to the residence. (T. 818-819).
The autopsy revealed that Jocelyn had died from a
h.

single gunshot wound to the head. (T. 1162-1171). There
Jocelyn's right hand.
was unexplained gunshot residue on

(T. 1208-1209).
Other items of forensic significance were gathered from
::

Jocelyn's home. A sheet on the bedspread was collected but
not processed. A condom paper was found beside the bed

9
i:.-

k

with no condom inside. A trashcan in the bedroom was
overflowing, but the trash can in the bathroom was empty.
(T. 809-813). An unopened condom was on the floor of the
master bedroom and an unopened box of condoms was
found in the guest bedroom. (T. 653-656, 671). A
bloodstain which DNA tests proved to be from a male and
not the defendant was found in the sink a few feet from the
body. (T. 640-646, 812, 2193-2194, 2236-2237). Hair was
found in the bathroom which did not belong to Jocelyn or
<
3

Wesley Earnest.

Ol

O

3?

The police also found a folded note near Jocelyn s body
(T. 553-555), though Marcy Shepherd denied seeing the
note at the scene. (T. 1056). The note was computer-

:

generated and contained the following message: "Mom, I
just can't take it anymore. I have tried so hard to be so
i

strong, but it's too hard to continue. The ups and downs are

too much to deal with. I am trying to appear as though I'm
doing fine, but the bad days are so overwhelming and
'll

ii

lonely. My new love will never leave the family. Wes has

10

r;:
i

!;i'
;■

:

buried us in debt. And starting over is too much. I am so

i"
i

sorry, Mom. I am so sorry, everyone. Jocelyn." (T.
i

j:

556-558).

I

I

The note was examined for latent prints by two

i
i.

i.

fingerprint examiners using the ACEV method (T. 2008).

!

Two incomplete latent prints were found - one on each side
!

of the paper containing the note. Kenneth Riding opined
I
I

that there were a sufficient number of points of similarity to

I

conclude that the incomplete or partial prints on the front
cn

z.

<

O)
3

and back of the note were made by the same thumb of

8
o
5
3

Wesley Earnest. (T. 2023-2031). Riding stated that he
found 16 points of similarity out of a potential 75 points. (T.

I

2074). Riding stated, however, that he had no way of
telling when the prints were made on the paper or, how old
the prints were, acknowledging that prints can last for
decades. (T. 2053).
Andrew Johnson performed an independent analysis of
the latent prints on the note and while his findings regarding

11
i
i.

r

points of similarity did not precisely agree with Mr. Riding he
agreed with Riding's opinion. (T. 2146-2147, 2162).
The note was also examined by James Fitzgerald,
forensic linguist, who determined that the composition style
was inconsistent with that of Jocelyn, and it did not match
Wesley's writing style either. (T. 1314-1319, 1327).
Earnest testified that he was in Chesapeake the entire
night of December 19, 2007. He was seen as he left the
school on December 19 at 4:00 p.m. (T. 2539-2540). He
cn

ss

went to Taco Bell between 6-7:00 p.m., where he was seen

8
o

4:

8

by a Taco Bell employee. (T. 2540-2545). On December 20,

r

he arrived at school between 7:30 and 7:45 a.m., had
coffee, chatted with Al Ragas, and did a teacher observation.
h

(T. 2305, 2546-2547).
No witness saw Earnest outside the Chesapeake, VA
area on the evening of December 19-20, 2007.
Chesapeake, VA and Forest, VA are more than 200 miles
from each other.

12

n:
3

ARGUMENT
1.)

Error regarding Fingerprint Expert.

Standard of Review:

It is within the sound discretion of

the trial court to determine whether a witness should be
permitted to express an expert opinion, and the decision to
exclude proffered expert opinion will not be reversed unless
it appears clearly that the witness was qualified in the field.
Landis v- Commonwealth. 218 Va. 797, 241 S.E.2d 749
I.

I
i:.

(1978). Constitutional issues present a question of law as to

Cl
2.

<0)

the admissibility evidence, to which a de novo standard of

3

£
o
3
£

review applies Walker v. Commonwealth, 280 Va. 227, 704

r

S.E.2d 124 (2011)
I
t

Argument and Authorities: Dr. Mnookin was the most
qualified witness to appear at this trial. While the Trial Court
and the Court of Appeals focused mainly on the fact that she
is an evidence professor at U.C.L.A. with a law degree, she
also has a degree from M.I.T. and has served in many
scholarly capacities relating to fingerprint methodology. She
has written and published articles on fingerprint

13
Lj

r
!i

methodology and she was given a grant by the National
Institute of Justice to compile a clinical and statistical model
to develop, for the first time, a clinical and statistical basis
for affecting a match between a partial print and a known
r

print. Each of her many qualifications bear directly on her
expert qualification in fingerprint methodology. Dr.

j.

Mnookin's testimony regarding fingerprint methodology is
common to all fingerprint disciplines.
Dr. Mnookin's entire testimony involved her opinion and
£T»
Z.

<

analysis of the methodology employed by Riding and

OJ

ft)

O

5
S

Johnson. Dr. Mnookin would have testified that until she

,•)

completes her study no statistics or other clinical study

lil
ft

»

support the levels of certainty expressed by Riding and
Johnson regarding their fingerprint identification of the
partial latent print in this case.
Matters elicited on direct examination are material for
the purpose of impeachment by contradiction. Kirk v.
Commonwealth. 21 Va. App. 291, 464 S.E.2d 162 (1995).

14

Melendez-Pia7 v. Massachusetts, 557 U.S. 305 (2009)
states at page 321 that "there is little reason to believe that
confrontation will be useless in testing an analyst's honesty,
proficiency, and methodology," with regard to cross
\

examination. The right to a fair trial demands that a
defendant must be allowed to present testimony, Webb_vc
Texas. 409 U.S. 95 (1972), as well as conduct cross
examination. The right to a fair trial is guaranteed by the
Sixth and Fourteenth Amendments, including the right to a

<7i

<HI

meaningful opportunity to present a complete defense. U.S.

ro
O

3
8

v. Mickens. 837 F. Supp. 745 (S.D. W. VA. 1993), aff_d, 53

r

F.3d 329 (4th Cir. 1995), Keane v. Kentucky, 476 U.S. 683
(1986). All scientific conclusions are subject to being
■!

qualified by the presentation of evidence which explains,
limits, or contradicts those conclusions.

!:

Dowdv v. Commonwealth. 278 Va. 577, 686 S.E.2d
710 (2009) established that the basis for a fingerprint
expert's testimony was a matter of weight and not

:|
'!

;i

I <

I

admissibility, and such testimony is admissible when it

15

1

"concerns matters not within the ordinary knowledge of the
jury." State v. Dietz. 182 W. Va. 544, 390 S.E.2d 15
(1990). Pavne v. Commonwealth. 277 Va. 531, 674 S.E.2d
835 (2009); Compton v. Commonwealth, 219 Va. 716, 250
S.E.2d 749 (1979).
The factual and scientific basis for the existence of the
defendant's position can be found in the National Academy
of Sciences Report published bv the Department of Justice^
Strengthening Forensic Science in the United States A Path
(7)
r.

<

Forward, and The National Academy of Sciences Report on

Q)

D

s

o
3?

forensic Sciences: What it Means for the Bench and Bar,

n>

i:
i

The Honorable Harry T. Edwards' presentation at the

s

Conference on The Role of the court in an Age in Developing

i

Science & Technology, Washington, D.C., May 6, 2010.
f

r

Expert testimony must be based upon a proper
foundation. Va. Fin. Assocs. v. ITT Hartford Group, Inc, 266

f

Va. 177, 585 S.E.2d 789 (2003). Wesley Earnest offered a
witness to say that the Commonwealth's methodology
exaggerates its efficiency since there is no clinical or
:
;

16
U

H
'■I

statistical foundation for the claim that the experts made
regarding a partial fingerprint.
Dr. Mnookin's testimony and her statements regarding
the lack of a clinical or statistical basis for Mr. Riding or Mr.
.■i

;

Johnson's opinion is a matter for the jury. Street v. Street,
25 Va. App. 380, 488 S.E.2d 665 (1997). The jury is entitled
to weigh the education and experience of the experts and
accept or reject their opinions. Bolling v. Bowen, 682 F.
Supp. 864 (W.D. Va. 1988). Differences in methodology

cr\

2.

<

have been held to be appropriate for resolution by a jury.

OJ

□

ft
o

3

Watson v. TNCQ Allovs Int'l, Inc., 209 W. Va. 234, 545

ft
t

f

S.E.2d 294 (2001). Spencer v. Commonwealth, 240 Va. 78,
393 S.E.2d 609 (1990) rejected the Frye test but stated that
a finding of reliability is required for the admissibility of
evidence.

;!

The Virginia Court of Appeals has allowed experts to
differ regarding the methodology used for DNA evaluations.
In Hodaes v- Commonwealth, 26 Va. App. 43, 492 S.E.2d
846 (1997) both the defense and the Commonwealth

17
i ■

i-

1
it

■

i1

presented differing views of the method used to compute

!
*

statistical probabilities. The Hodges case was not discussed

i

in any way by the Court of Appeals even though it controls
f

i

the result in this case and has never been overruled.
The Commonwealth experts in support of the partial

if

latent fingerprint comparison offered a reference to a one in

I

sixty six billion to one error rate and stated that "nobody has
ever found two different people with the same fingerprint."
Collectively and individually these statement represent the

2.

<

exaggerated claims of infallibility that surround fingerprint

ID

o
3
8

testimony. These claims require clarification.
All fingerprints are not the same. There are inked
prints which are complete, and there are partial latent prints
which must first be revealed by a chemical or other scientific
process, and which are only portions of a fingerprint.
Frequently, with partial fingerprints, a substantial portion of
the whole fingerprint is simply missing. The fingerprints in
this case are partial latent fingerprints and much of the

\

fingerprint is missing.

i

>

!7
!
;

18

Dr. Mnookin would testify from her personal
experience, that she knows of a case where a fingerprint
was identified to two people and that this problem has been
the subject of study in her working groups and has led to
the National Institute of Justice project to develop a
database which for the first time will attempt to develop a
system which can match a partial fingerprint to a known
fingerprint. She is conducting this project and her nationally
!;
n

recognized work is not hearsay.

2.

Dr. Mnookin would not have testified that she knew of

01
3

s

o
3
£
i

no documentation supporting Johnson's assertions, she
would have testified that based on her personal experience,
and the original work she was performing compiling a
database for the National Institute of Justice, that there was
no substantiation or documentation supporting Johnson's

;

claim. Dr. Mnookin statement is a statement of a presently

j’

r

existing fact, and a present scientific reality.
Johnson and Riding completely lacked personal
knowledge regarding scientific support for their claims of

19

r
i

;■

accuracy regarding partial latent fingerprints. Only Dr.
Mnookin possessed this personal knowledge and this
testimony is required for a complete defense which includes
a meaningful right to present testimony. Webb v. Texas,
409 U.S. 95 (1972), Crane v. Kentucky, 476 U.S. 683

(1986).
2.)
■

Error regarding basis for Expert testimony,
confrontation clause and jury instruction.

Standard of Review:

"[Wjhere the issue of scientific

reliability is disputed, if the court determines there is a
<
O)
3

8
o

sufficient foundation to warrant admission of the evidence,

3?

8

the court may in its discretion admit the evidence with
appropriate instructions to the jury to consider the disputed
l

reliability of the evidence in determining its credibility and
weight." .Spencer v. Commonwealth. 240 Va. 78, 393 S.E.2d

i.

f

609 (1990). Constitutional issues present a question of law
as to the admissibility evidence, to which a de novo standard

f
r

of review applies Walker v. Commonwealth, 280 Va. 227,
704 S.E.2d 124 (2011).

20

When the trial court refuses to grant an instruction
proffered by the defendant, the appellate court views the
facts in the light most favorable to the defendant. It is error
to refuse an instruction when there is evidence to support it.
Commonwealth v. Sands, 262 Va. 724, 729, 553 S.E.2d
733, 736 (2001).
Argument and Authorities: Two independent witnesses
saw Wesley Earnest in Chesapeake Virginia at a time when it
n

<
a>

would have been difficult, if not impossible for Wesley
Earnest to travel to Forest Virginia in time to meet Jocelyn at

D

S
o

7:30 p.m. when her last known earthly acts occurred. The
r

fingerprint identification is in direct conflict with the
!

testimony of all persons who testified about the defendant's
whereabouts on the night of Jocelyn's death, and with the

?

biological evidence found at the scene.

r.

i
i;

In Hodaes v. Commonwealth. 26 Va. App. 43, 492
S.E.2d 846 (1997) the Commonwealth was allowed to

f

t

present rebuttal evidence by an expert witness regarding the

'i

i1

methodology employed by the defense expert, and the basis

21
1,

for that expert's opinion. Neither Riding nor Johnson did any
work which contributed to the scientific contention that a

I

partial latent fingerprint could be matched to a known print
based upon finding a certain number of matching points
i>
:

discerned through a completely visual comparison of the two

i

l

r

\

i

fingerprints. They simply reciting a routinely used premise
for establishing a fingerprint match in these situations. It
was apparent on cross examination that neither witness

*

could explain the basis for this premise or their conclusion

£71

<0)

by offering a clinical or statistical context which proved their

3

8
o
3:

s

claim that the fingerprint could only belong to Wesley
Earnest.

k

In recent years whole categories of convictions relating
!■

to comparative bullet-lead analysis, and hair and fiber

r

£

s

l

analysis, have been set aside, dismissed, or retried, based
on the same sort of extraordinarily inflated and exaggerated
statements of accuracy that were used by the

r

!
:

;
[•

Commonwealth witnesses in this case.

22

X

1i

In the wake of a growing expression of concern in the
:-i
I.:

forensic scientific community, the United States Supreme
‘i|

il1

Court in the case of Melendez-Diaz v. Massachusetts, 557
U.S. 305, 129 S. Ct. 2527 (2009) discussed the same study

III

from of the National Academy of Sciences, which the
defense was prevented from using in this case. While the
h

Melendez court stated that the accuracy of the methodology
used and, incompetence of the examiner may be weeded
out by cross-examination, it also acknowledged that there is
Cl
2.

fg

a problem with "subjectivity, bias, and unreliability of

Ol
3

£
o

if

common forensic tests such as latent fingerprint analysis..."
More recently the Scottish Government has released a
report entitled "The Fingerprint Inquiry," conducted by Sir

t

Anthony Campbell, which was released in December 2011,
and which again questions the overstated claims of certainty
f

f
f

in fingerprint analysis in a case of national prominence. In
the Scottish case and the Mayfield case a proper result was
ultimately obtained, but the result was contrary to the initial

i.

fingerprint identification, and only occurred, when unlike the
t

t ■

L

23

i

present case, additional expert and factual evidence was
>'!

considered.
In Bullcomina v. New Mexico, 564 U.S.

0910876

yi

(2011), the Court cited Crawford v. Washington, 541 U.S.
36 (2004) by saying "the text of the Sixth Amendment does
not suggest any open ended exceptions from the
!

confrontation requirement to be developed by the courts.
Giles v. California. 554 U.S. 353, 375 (2008). Accordingly,
the Clause does not tolerate dispensing with confrontation
£T>

5-

s

3

simply because the court believes that questioning one

o
5
ft

witness about another's testimonial statements provides a

;

fair enough opportunity for cross examination." IcL at Slip
:

t

Op. 13.

.*

t

I

If the Confrontation Clause requires such clear
opportunities to confront adverse testimony, an application
of this Sixth Amendment right and the Fourteenth
Amendment guarantees to a fair trial would require a court
to allow a defendant to present a witness to confront

Lf.

24

p
1

I
lij
j;1

adverse testimony regarding overstated claims of reliability.
Crane v. Kentucky, 476 U.S. 683 (1986).

i.

In State of Maryland v. Brvan Rose. (Circuit Court of
i'j

Baltimore County, Case No. K06-545, October 19, 2007),
The trial judge granted Rose's motion to exclude and ACE-V
fingerprint examiner's testimony finding that there is no
error rate in the ACE-V method as incredible; that the ACE-V
method relies on subjective judgments; that the State failed
to establish its reliability; that there is no agreed upon

cn
2.
5<
3

standard for the minimum number of points required for a

S
o
3
£

match; and that verification is not independent of the initial

identification.
i

By allowing the Commonwealth to elicit testimony from
it experts that the latent print is Earnest's print as an
adjudicative fact, i.e. that the latent prints conclusively
!
i.

matched Earnest's known prints would have required the

■t

r

jury to wholly reject their conclusive opinions in order to find
Earnest "not guilty."

t

!:■

25
!l:

f:
The Defendant offered the following instruction (R.
134), refused by the trial court:

i

£T>
2.

<
OJ

£
o

4:

£

The Court instructs the Jury the latent
fingerprint expert's testimony is his or her
professional opinion. It should not be considered
by you as a conclusive fact, but should be weighed
along with all the evidence that you have heard in
this case. You should consider the basis for this
expert's opinion and the manner by which he
arrived at his conclusions. You may consider the
education and experience of the expert witnesses
who testified considering fingerprints when
evaluating their opinions. Testimony from a latent
fingerprint expert is not conclusive, in itself, on
the issue of guilt; instead, guilt must be proven in
light of all the evidence. As jurors, you are the
ultimate fact finder and may give the fingerprint
evidence whatever weight you determine is
appropriate.
It is error to refuse an instruction when there is
evidence to support it. Commonwealth v. Sands, 262 Va.
724, 729, 553 S.E.2d 733, 736 (2001). The testimony
amounts to a comment on the ultimate issue which is not

j.

permitted. Ramsev v. Commonwealth, 200 Va. 245, 105
S.E.2d 105 (1958).

26
li.

fi
i

3.)

Error Regarding Change of Venue and
Objection to the Venire.

Standard of Review:

i

A change of venue is a matter

within the sound discretion of the trial court. Poindexter v.
Commonwealth. 218 Va. 314, 237 S.E.2d 139 (1977).
i

Argument and Authorities: Finding Earnest could not

y

receive a fair re-trial in Bedford County, the trial judge
granted Earnest's motion for a change of venue from
Bedford Circuit Court and over defendant's written objection

I

moved the case to Amherst Circuit Court with a venire from
<OJ
?!
<D

O

3?
Si

Nelson County. Both Amherst and Nelson County are within
the same judicial district as Bedford County and all three

i:

i.

counties are suburbs of, or otherwise closely associated
with, the City of Lynchburg. The same television stations

I:

broadcast in all three counties (T. 360, L8-10) and there is a
1;

common daily newspaper. (T. 362, L13-18). The first
Earnest trial, the circumstances of Jocelyn Earnest's death,
!■;

and the subsequent investigation, were all widely reported in
all of these media outlets.

i:|
!

27

IT

i

The Court could fairly be said to have already ruled that
jurors from Bedford County could not stand indifferent to the

li

i

cause, Green v. Commonwealth, 262 Va. 105, 546 S.E.2d
446 (2001) and the same finding must apply to the Nelson

i

County jurors.
Brittle v. Commonwealth. 222 Va. 518, 281 S.E.2d 889

t

(1981). Tuaale v. Commonwealth. 228 Va. 493, 323 S.E.2d
539 (1984).
Over a seven hour period while jury selection was

£71

taking place, the venire were speculating about the case and

u

3

S
o

3:

£

discussing the fact that it had been tried before, and that
the first jury had seen evidence that was excluded from both
trials (T. 333 LI, - T. 339 L2, T. 341, L3-24). One juror
recounted the extensive discussion in the jury room and said
that she was surprised that everyone had not admitted

l

talking about the case in the jury room. (T. 341-342).
4.)

1]
i
L

Error regarding Driving Experiment.

Standard of review:

A Circuit Court's decision to admit

or exclude evidence is reviewed under an abuse of discretion

28

or legal error standard and, on appeal, will not be disturbed
j

absent a finding of abuse of that discretion or legal error.
Herndon v. Commonwealth. 280 Va. 138, 694 S.E.2d 618

II;

>;

(2010).
Argument and Authorities: Testimony based on results of
experiments is not admissible if it is based on an inadequate
foundation, is speculative, or is founded on assumptions
lacking a sufficient factual basis. John v. Im, 263 Va. 315,
319-20, 559 S.E.2d 694, 696 (2002).

<O)
3n>
O
3

8

The Court admitted evidence about the length of time it
takes to travel from Chesapeake to Forest, Virginia. The
evidence, concerning an automobile trip which lasted several
hours, and began at the Atlantic Ocean and ended at the
Blue Ridge Mountains, was generic and lacked a proper
foundation. No effort was made to account for weather
conditions, road conditions, traffic conditions, or even to
account for the various routes which may have been used or
the time of day and time of year when the trip was being
made. The jury was invited to speculate about routes and

29

»
f
i

make assumptions about speed, lack of radar enforcement,
and route in the case where time was of the essence.
Lacking a proper foundation, testimony regarding travel time
r;

ii

was pure speculation and should not have been admitted.
Keesee v. Doniaan, 259 Va. 157, 524 S.E.2d 645 (2000).
5.)

Error regarding excluding relevant evidence
improperly termed "third party guilt".

%

Standard of Review:

A Circuit Court's decision to admit

or exclude evidence is reviewed under an abuse of discretion
I

standard. Herndon v. Commonwealth, 280 Va. 138, 694

£T>
2.

<£

3

s

S.E.2d 618 (2010).

o
fl>

(
i

Argument and Authorities: It is well established that in
order for there to be sufficient evidence to convict in a
circumstantial case there must be an unbroken chain of

j

)
r
;

circumstances which are consistent with guilt and
inconsistent with innocence. There is direct evidence from

i

i

witnesses who saw the defendant hundreds of miles away at

•i

a time when he could not have driven to Bedford County to
l;

:

confront or kill Jocelyn Earnest at 7:30 on the night of the
murder. There is even DNA evidence of an identifiable, yet
30

!-i

„

unknown, person's blood within a few feet of the body. The
excluded evidence in this case is admissible for an
independent reason as it tends to disprove circumstantial
evidence which was introduced by the Commonwealth and
i

used to support the Commonwealth's wholly circumstantial
theory of guilt. Augustine v. Commonwealth, 226 Va. 120,
306 S.E.2d 886 (1983).
In any circumstantially presented murder case the
i

events of the decedent's last few hours are relevant to time,
CD
S'

s

place, motive and means. Thomas v. Commonwealth, 187

3

£
o
$

Va. 265, 46 S.E.2d 388 (1948). A defendant should not be

i

f

required to present his case in a vacuum simply because the
circumstances of the last hours of a decedent's life are

i

unsavory. Every fact, however remote or insignificant, that
t

tends to establish the probability or improbability of a fact in
!

issue is relevant and should be admitted upon being offered

I-

into evidence by a proper witness. Ravenwood Towers, Inc.
:

v. Woodvard, 244 Va. 51, 419 S.E.2d 627 (1992). This is
especially true when one considers that circumstantial

31
1

Ji!
!■:

evidence should be viewed with great caution, especially in
first degree murder prosecutions Chrisman v.
Commonwealth, 3 Va. App. 371, 349 S.E.2d 899 (1986),

j

State v. Frasher, 164 W. Va. 572, 265 S.E.2d 43 (1980).
i;

!i

i;

is
1
J

Abdell v. Commonwealth, 173 Va. 458, 2 S.E.2d 293 (1939).
The excluded evidence previously cited, including the
evidence of Jocelyn's involvement with Maysa throughout

\
!i
*

her arrest for identity theft on the day Jocelyn died,
circumstantially show Wesley Earnest's absolute absence

O

3S

s

from Jocelyn's life. He simply doesn't appear anywhere

o

i?

during that fateful last day. The excluded evidence tends to
prove or disprove time, place, motive, means, or conduct, or
rebuts and clarifies a circumstance previously introduced by

i

the Commonwealth.
The spots of blood with an unknown DNA profile a few
feet from the body and the hair from unknown persons

i'
!■

establish the existence of other central characters in this
case, and other relevant evidence should not be excluded

32

simply because it highlights questions reaised by this
unexplained evidence.
6.)
’!

Error regarding tire evidence.

Standard of Review:

A Circuit Court's decision to admit

■i

or exclude evidence is reviewed under an abuse of discretion
standard. Herndon v. Commonwealth. 280 Va. 138, 694
S.E.2d 618 (2010).
Argument and Authorities: In order to be relevant,
evidence must tend to prove a point at issue in a case.
£7>

<

There is absolutely no evidence of David Hall's truck or its

Ol

s

rt>

o

5

tire marks in or near Forest, Virginia on any date, nor is

rp
i;i

|

■i:

there any evidence that Wesley drove a truck at all on that
day. Speculation on this point is not permitted. Courtney v.

'■I
:■!

Commonwealth. 281 Va. 363, 706 S.E.2d 344 (2011)

i

ii

David Hall and his wife persisted in saying, for more
than a year, that they could not say that Wesley had David's
j;

truck on December 19. This was because they knew that
Victoria Hall had seen Wesley when he returned the truck,
and that she had left prior to school that morning in

33

n

l:i
i

i

■i

December, 2007 around 8:00 a.m. due to rush hour traffic
for a photo appointment in Virginia Beach. David always
■!

maintained that he was late for school on the day Wesley
*
>

returned the truck, yet he was not late for school on

i
?

»
:

December 19, 2007.

i

In fact, David was due at work at 8:15 a.m. and was
i

not late for work on any day that week. There was no
evidence regarding unusual odometer readings on Hall's
truck. Though Earnest borrowed Hall's truck in December,
Cl
2.

<5

2007, the testimony is ambiguous as to when the truck was

ID

O

borrowed and returned. Evidence that Earnest bought new

ro

tires for the borrowed truck has no relevance to Jocelyn's
death and is speculative.
Evidence is not admissible if it is not relevant and
i

should be excluded if its prejudicial effect outweighs its

\
!
:•!
:

probative value. Evans-Smith v. Commonwealth, 65 Va.

! ■

App. 188, 361 S.E.2d 436 (1987).

34

:
iii

t
I'1

CONCLUSION

if
!i

For the reasons stated herein, Wesley Brian Earnest

!
■i:

ij?i

respectfully submits that the trial court erred holding that
the Commonwealth met its burden of proof, and for the
reasons stated herein, the defendant respectfully submits
that the Virginia Court of Appeals erred in affirming the
decisions and ruling of the trial court and in making further

I;

iii

rulings in this matter thereby finding him guilty of first

i\

s

degree murder and use of a firearm in the commission of a

Cl
2.

<0)

S
o

3

s

felony.
Wherefore, Wesley Brian Earnest prays that the Court

ir
i

grant his petition for appeal. Counsel for Appellant wishes
to appear and state orally the reasons for granting his
r

petition.

35
|:
!;■

1

til

’it
jl

*1

Respectfully submitted,

i't

:i!

WESLEY BRIAN EARNEST
a(!

By.

I

i

it
:|
!»
]•;

!*

Joseph A. Sanzone (VSB No. 20577)
G. Blair Sanzone (VSB No. 75382)
Sanzone & Baker, L.L.P.
1106 Commerce Street
P.O. Box 1078
Lynchburg, Virginia 24505
(434) 846-4691 (Telephone)
(434) 528-5264 (Facsimile)
valaw@sanzoneandbaker.com

Cl

<Ol
3

s

o

3
Si

i.

!•:

if
it
!l

36

Additional material
from this filing is
available in the
Clerk's Office.

